                                               12368                                   Federal Register / Vol. 71, No. 47 / Friday, March 10, 2006 / Notices

                                               ACTION:     Notice.                                                      The NPDB is authorized by the Health                  computer search time, runs, printouts,
                                                                                                                     Care Quality Improvement Act of 1986                     and time of computer programmers and
                                               SUMMARY: The Health Resources and                                     (the Act), Title IV of Public Law 99–660,                operators, or other employees, (2)
                                               Services Administration (HRSA),                                       as amended (42 U.S.C. 11101 et seq.).                    Photocopying or other forms of
                                               Department of Health and Human                                        Section 427(b)(4) of the Act authorizes                  reproduction, such as magnetic tapes—
                                               Services (HHS), is announcing a fifty                                 the establishment of fees for the costs of               actual cost of the operator’s time, plus
                                               cent increase in the fee charged to                                   processing requests for disclosure and of                the cost of the machine time and the
                                               entities authorized to request                                        providing such information.                              materials used, (3) Postage—actual cost,
                                               information from the National                                            Final regulations at 45 CFR part 60 set               and (4) Sending information by special
                                               Practitioner Data Bank (NPDB) for all                                 forth the criteria and procedures for                    methods requested by the applicant,
                                               queries. The new fee will be $4.75.                                   information to be reported to and                        such as express mail or electronic
                                               There will be no change to the $8.00                                  disclosed by the NPDB. Section 60.3 of                   transfer—the actual cost of the special
                                               self-query fee.                                                       these regulations defines the terms used                 service.’’
                                               DATES: This change will be effective                                  in this announcement.                                       Based on analysis of the comparative
                                               May 9, 2006.                                                             In determining any changes in the                     costs of the various methods for filing
                                                                                                                     amount of the user fee, the Department                   and paying for queries, the Department
                                               FOR FURTHER INFORMATION CONTACT:
                                                                                                                     uses the criteria set forth in section                   is increasing all the entity query fees by
                                               Mark Pincus, Branch Chief, Practitioner
                                                                                                                     60.12(b) of the regulations, as well as                  $0.50 per name. The practitioner self-
                                               Data Banks Branch, Office of Workforce
                                                                                                                     allowable costs pursuant to Public Law                   query fee remains at $8.00. This price
                                               Evaluation and Quality Assurance,
                                                                                                                     109–77, as amended, and Title II,                        increase is justified after an evaluation
                                               Bureau of Health Professions, Health
                                                                                                                     Division F, Departments of Labor,                        of the Data Bank’s operational costs. At
                                               Resources and Services Administration,
                                                                                                                     Health and Human Services, and                           the current fee of $4.25, the Data Bank
                                               Parklawn Building, Rm 8C–103, 5600
                                                                                                                     Education, and Related Agencies                          is unable to recover full costs of
                                               Fishers Lane, Rockville, MD 20857, Tel:
                                                                                                                     Appropriation Act for the Consolidated                   operation. In keeping with the Act, and
                                               301–443–2300, E-mail:
                                                                                                                     Appropriations Act, 2005, Public Law                     pursuant to the requirements of section
                                               policyanalysis@hrsa.gov.
                                                                                                                     108–447. These laws require that the                     60.12 of the regulations, there are not
                                               SUPPLEMENTARY INFORMATION:     The                                    Department recover the full costs of                     sufficient funds to recover the full costs
                                               current fee structure ($4.25 per name)                                operating the Data Bank through user                     of operating the Data Bank without a fee
                                               was announced in the Federal Register                                 fees. Paragraph (b) of the regulations                   increase.
                                               on April 22, 2003 (68 FR 19837) and                                   states:                                                     When a query is for information on
                                               became effective on July 1, 2003. All                                    ‘‘The amount of each fee will be                      one or more physicians, dentists or
                                               entity queries are submitted and query                                determined based on the following                        other health care practitioners, the
                                               responses received through the NPDB’s                                 criteria:                                                appropriate fee will be $4.75 multiplied
                                               Integrated Query and Reporting Service                                   (1) Use of electronic data processing                 by the number of individuals about
                                               (IQRS) and paid via an electronic funds                               equipment to obtain information—the                      whom information is being requested.
                                               transfer or credit card.                                              actual cost for the service, including                   For examples, see the table below.

                                                                                                                                               Fee per
                                                                                   Query method                                                name in                                  Examples
                                                                                                                                                query

                                               Entity query (via internet with electronic payment) ........................                       $4.75    10 names in query. 10 × $4.75 = $47.50.
                                               Practitioner self-query .....................................................................       8.00    One self-query = $8.00.



                                                 The Department will continue to                                     SUMMARY: In accordance with final                        User Fee Amount
                                               review the user fee periodically, and                                 regulations at 45 CFR part 61,
                                               will revise it as necessary. Any changes                              implementing the Healthcare Integrity                      Section 1128E(d)(2) of the Social
                                               in the fee and their effective date will                              and Protection Data Bank (HIPDB), the                    Security Act (the Act), as added by
                                               be announced in the Federal Register.                                 Department is authorized to assess a fee                 section 221(a) of the Health Insurance
                                                                                                                     on all requests for information, except                  Portability and Accountability Act of
                                                 Dated: March 3, 2006.
                                                                                                                     requests from Federal agencies. In                       1996, specifically authorizes the
                                               Elizabeth M. Duke,
                                                                                                                     accordance with § 61.13 of the HIPDB                     establishment of fees for the costs of
                                               Administrator.
                                                                                                                     regulations, the Department is                           processing requests for disclosure and
                                               [FR Doc. E6–3323 Filed 3–9–06; 8:45 am]
                                                                                                                     announcing an adjustment from $4.25 to                   for providing information from the
                                               BILLING CODE 4165–15–P
                                                                                                                     $4.75 in the fee charged for each query                  Healthcare Integrity and Protection Data
                                                                                                                     submitted by authorized entities. There                  Bank (HIPDB). Final regulations at 45
                                               DEPARTMENT OF HEALTH AND                                              will be no change to the current $8 self-                CFR part 61 set forth the criteria and
                                               HUMAN SERVICES                                                        query fee.                                               procedures for information to be
                                                                                                                                                                              reported to and disclosed by the HIPDB.
                                               Office of Inspector General                                           EFFECTIVE DATE:  This change will be                     The Act also requires that the
                                                                                                                     effective May 9, 2006.                                   Department recover the full costs of
dsatterwhite on PROD1PC65 with PROPOSAL




                                               Healthcare Integrity and Protection                                                                                            operating the HIPDB through such user
                                                                                                                     FOR FURTHER INFORMATION CONTACT:      Joel
                                               Data Bank: Change in User Fees                                                                                                 fees. In determining any changes in the
                                                                                                                     Schaer, Office of External Affairs, (202)
                                                                                                                     619–0089.                                                amount of the user fee, the Department
                                               AGENCY: Office of Inspector General
                                               (OIG), HHS.                                                                                                                    employs the criteria set forth in
                                                                                                                     SUPPLEMENTARY INFORMATION:                               § 61.13(b) of the HIPDB regulations.
                                               ACTION:     Notice.



                                          VerDate Aug<31>2005       20:31 Mar 09, 2006       Jkt 208001      PO 00000      Frm 00036      Fmt 4703   Sfmt 4703   E:\FR\FM\10MRN1.SGM   10MRN1
                                                                                          Federal Register / Vol. 71, No. 47 / Friday, March 10, 2006 / Notices                                                                12369

                                                 Specifically, § 61.13(b) states that the                                   The current fee structure of $4.25 for                       number of individuals or organizations
                                               amount of each fee will be determined                                     each separate query submitted by                                about which information is being
                                               based on the following criteria:                                          authorized entities was announced in a                          requested.
                                                 • Direct and indirect personnel costs;                                  Federal Register notice on April 22,                              To minimize administrative costs, the
                                                 • Physical overhead, consulting, and                                    2003, (68 FR 19838) and became                                  Department will accept queries
                                               other indirect costs, including rent and                                  effective on July 1, 2003. Based on the                         submitted by authorized entities by
                                               depreciation on land, buildings, and                                      above criteria and our analysis of                              credit card or electronic funds transfer.
                                               equipment;                                                                operational costs and the comparative                           The Department will continue to accept
                                                                                                                         costs of the various methods for filing                         payment for self-queries only by credit
                                                 • Agency management and
                                                                                                                         and paying for queries, the Department                          card. The HIPDB accepts Visa,
                                               supervisory costs;
                                                                                                                         is now raising the fee by $.50 cents,                           MasterCard, and Discover. To submit
                                                 • Costs of enforcement, research, and                                   from $4.25 to $4.75, for each query                             queries, registered entities (including
                                               establishment of regulations and                                          submitted by authorized entities. The                           law enforcement agencies) must use the
                                               guidance;                                                                 practitioner self-query fee will remain at                      HIPDB Web site at http://www.npdb-
                                                 • Use of electronic data processing                                     $8 and the investigative research fee                           hipdb.com.
                                               equipment to collect and maintain                                         will remain at $10.                                               The Department will continue to
                                               information, i.e., the actual cost of the                                    When an authorized entity query is                           review the user fee periodically and will
                                               service, including computer search                                        submitted for information on one or                             revise it as necessary. Any future
                                               time, runs, and printouts; and                                            more health care practitioners,                                 changes in the fee and its effective date
                                                 • Any other direct or indirect costs                                    providers, or suppliers, the appropriate                        will be announced through a notice in
                                               related to the provision of services.                                     total fee will be $4.75 multiplied by the                       the Federal Register.

                                                                                                                                                   EXAMPLES
                                                                                                                                                               Fee per name
                                                                                                                                                                in query, by
                                                                                          Query method                                                                                                    Examples
                                                                                                                                                                 method of
                                                                                                                                                                  payment

                                               Authorized entity query .............................................................................                       $4.75   10 names in query: 10 × $4.75 = $47.50.
                                               Self-query ..................................................................................................                8.00   10 self-queries: 10 × $8 = $80.
                                               Investigative research query .....................................................................                          10.00   10 investigative research queries: 10 × $10 = $100.



                                                 Dated: March 3, 2006.                                                     Date: April 9–10, 2006.                                       DEPARTMENT OF HEALTH AND
                                               Daniel R. Levinson,                                                         Time: 6 p.m. to 5 p.m.                                        HUMAN SERVICES
                                               Inspector General.                                                          Agenda: To review and evaluate grant
                                               [FR Doc. E6–3378 Filed 3–9–06; 8:45 am]                                   applications.                                                   National Institutes of Health
                                                                                                                           Place: Marriott Bethesda North Hotel &
                                               BILLING CODE 4152–01–P
                                                                                                                         Conference Center, 5701 Marinelli Road,                         National Cancer Institute; Notice of
                                                                                                                         North Bethesda, MD 20852.                                       Closed Meeting
                                               DEPARTMENT OF HEALTH AND                                                    Contact Person: Michael B. Small, PhD,
                                                                                                                                                                                            Pursuant to section 10(d) of the
                                               HUMAN SERVICES                                                            Scientific Review Administrator, Research
                                                                                                                                                                                         Federal Advisory Committee Act, as
                                                                                                                         Programs Review Branch, Division of
                                                                                                                                                                                         amended (5 U.S.C. Appendix 2), notice
                                               National Institutes of Health                                             Extramural Activities, National Cancer
                                                                                                                                                                                         is hereby given of the following
                                                                                                                         Institute, National Institutes of Health, 6116
                                                                                                                                                                                         meeting.
                                               National Cancer Institute; Notice of                                      Executive Boulevard, Room 8127, Bethesda,
                                                                                                                                                                                            The meeting will be closed to the
                                               Closed Meeting                                                            MD 20892, 301–402–0996,
                                                                                                                                                                                         public in accordance with the
                                                                                                                         smallm@mail.nih.gov.
                                                  Pursuant to section 10(d) of the                                                                                                       provisions set forth in sections
                                               Federal Advisory Committee Act, as                                        (Catalogue of Federal Domestic Assistance                       552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
                                               amended (5 U.S.C. Appendix 2), notice                                     Program Nos. 93.392, Cancer Construction;                       as amended. The contract proposals and
                                               is hereby given of the following                                          93.393; Cancer Cause and Prevention                             the discussions could disclose
                                               meeting.                                                                  Research; 93.394, Cancer Detection and                          confidential trade secrets or commerical
                                                  The meeting will be closed to the                                      Diagnosis Research; 93.395, Cancer                              property such as patentable material,
                                               public in accordance with the                                             Treatment Research; 93.396, Cancer Biology                      and personal information concerning
                                               provisions set forth in sections                                          Research; 93.397, Cancer Centers Support;                       individuals associated with the contract
                                               552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,                                93.398, Cancer Research Manpower; 93.399,                       proposals, the disclosure of which
                                               as amended. The grant applications and                                    Cancer Control, National Institutes of Health,                  would constitute a clearly unwarranted
                                               the discussions could disclose                                            HHS.)                                                           invasion of personal privacy.
                                               confidential trade secrets or commercial                                    Dated: March 3, 2006                                            Name of Committee: National Cancer
                                               property such as patentable material,                                     Anna Snouffer,                                                  Institute Special Emphasis Panel, SBIR Topic
                                               and personal information concerning                                       Acting Director, Office of Federal Advisory                     219 (Phase I), Platform Biosensor
dsatterwhite on PROD1PC65 with PROPOSAL




                                               individuals associated with the grant                                     Committee Policy.                                               Technologies for Point-of-Care Cancer
                                               applications, the disclosure of which                                                                                                     Diagnostics.
                                                                                                                         [FR Doc. 06–2270 Filed 3–9–06; 8:45 am]
                                               would constitute a clearly unwarranted                                                                                                      Date: March 7, 2006.
                                                                                                                         BILLING CODE 4140–01–M                                            Time: 12 p.m. to 4 p.m.
                                               invasion of personal privacy.                                                                                                               Agenda: To review and evaluate contract
                                                 Name of Committee: National Cancer                                                                                                      proposals.
                                               Institute Initial Review Group, Subcommittee                                                                                                Place: National Institutes of Health,
                                               C—Basic & Preclinical.                                                                                                                    National Cancer Institute, 6116 Executive



                                          VerDate Aug<31>2005         20:31 Mar 09, 2006        Jkt 208001       PO 00000       Frm 00037       Fmt 4703       Sfmt 4703   E:\FR\FM\10MRN1.SGM   10MRN1
